Mr. Joshua B. Bolten
Director, Office of Management & Budget
Eisenhower Executive OEce Building, Rrn 252
Washington, DC 20503


Dear Mr. Bolten:

Attached is this year's response to your August 2004 request of an annual systems
security review as required in the Federal Information Security Management Act
(FISMA). Included in this submittal are summary reports from both the Chief
Technology Officer and the OEce of the Inspector General.

PBGC is committed to protecting its information systems, network infrastructure, and
data. We are continuously improving information security protection and awareness
programs and continue to make it a major agency priority.

We will continue to closely monitor the progress of our information security activities to
ensure our compliance with the FISMA and other related government security policies
and directives.

Tf your staff needs more information, please do not hesitate to have them contact Joe
Scavetti, PBGC's Enterprise Information Systems Security Program Manager, Ofice of
Information Technolog, at (202) 326-4 100 extension 3997.

Very truly yours,



Richard W. Hartt
Chief Technology OEcer



Cc: Robert L. Ernmons (Inspector General)     /"
                                  Executive Summary
                             OEce of Information Technology

 PBGC continues to improve its system security infrastructure and posture in compliance
 with the Federal Information Security Management Act of 2002. Since last year's
 reporting period, PBGC has improved the Enterprise Information Systems Security
 Program (EISSP) led by the Information Systems Security OEcer. The EISSP ensures
 the following activities are conducted, monitored, and evaluated:
     * Periodic assessments of general support and major business application;
          Annual Security Plan updates;
          Establish policy and procedures based on risk assessments that cost effectively
          reduce information security through exercising the System Life Cycle
         Management process;
         Improve security of the facilities, network operation, and information systems
         through periodic inspections;
         Improve Security Awareness Training by implementing Computer Base Training
         and briefings with awareness videos for its annual training and newly hired
         personnel;
         Conduct periodic testing and evaluation of the effectiveness of security policies,
         procedures, and practices;
         Improve security awareness for detecting, reporting, and responding to security
         incidence; and
        Conduct exercises to test continuity of operations for general support and major
        business systems.

During FY2004, PBGC continued to improve its monitoring and auditing process, review
and update its security plans, perform semi-annual certifications of its system servers to
ensure implementation of curre? seculitv updates. Our review cycle f ~ thk   r repwtiy
period will be completed by November 30,2004. Also during FY2004,PBGC was able
to certify nine major applications bringing to total to twenty out of twenty-four. It is
anticipated that four more will be completed by the end of this calendar year. PBGC will
continue with its three year cycle of system certifications to ensure the security of its
system applications and to compiy with FISMA regulations. PBGC continues to work
with the Office of the Inspector General and its auditing representatives to resolve any
anomalies that may potentially render PBGC assets or its information systems vulnerable.


      *.
           ."   -
                '
    ..-
Richard Hartt
Chief Technology Officer
                        Pension Benefit Guaranty Corporation
                                                        Office of Inspector General
                                        1 200 K Street. N.W., W a s h i n g t o n , D.C. 20005-4026


                                                                               October 12,2004


 Mr. Joshua B. Bolten
 Director, Office of Management and Budget
 Eisenhower Executive Office Building, Rrn 252
 Washington, DC 20503

 Dear Mr. Bolten:
        The Office of Inspector General (OIG) at the PBGC conducted independent
reviews of information and technology security as an integral part of its FY 2004 audit
and assessment work. Included in this work was the review of general controls and
specific application control reviews associated with the annual financial statement audit.
These reviews generally followed the guidance provided within the GAOYsFederal
Information System Controls Audit Manual (FISCAM) and reflected the impact of these
genera1 controls on PBGC's significant financial systems. Specifically, the areas of
review included:
        Entity Wide Security (overall security program),
        Access Control (authorization, authentication, monitoring, and integrity),
        Service Continuity (contingency and business recovery planning),
        Systems Software (security and operational controls related to the computer
        platforms on which the business systems operate, i.e., UNIX, Windows NT,
        Yov:!l, ztc.),
    6   Application Development and Change Control (system life cycle management,.
        new system development, and maintenance to existing systems), and
        Application Controls (completeness, access, validity, and specialized access as
        they relate to input, output and processing controls).

        Over the past years, the OIG and PBGC focused on improving the effectiveness
of the Corporation's security program and reducing the associated risks on the business
operations. This included several specific security reviews performed by the OIG such as
network attack and penetration testing, a comprehensive review of security policy and
procedures, as well as business system assessments and the control structure surrounding
those systems.


        Based on our current assessment, we believe PBGC has a security structure,
program and policies in place addressins operational and physical controls that have
improved and promoted a strong security-related environment. PBGC continues to take
significant steps to identify levels of security required to control and protect its assets and
Letter to Joshua Bolton
FY 2004 FISMA Report
Page 3 of 3
                                                                                            '
information, and further improve its security program. A significant example of this
improvement is evidenced by the restructuring of the Office of Information Technology
                                                                                                '
that included the realignment of the Information Systems Security Officer (ISSO) to
report directly to the Chief Technology Officer (CTO).


        The security environment is dynamic and requires constant attention and
assessment not only by the OIG, but a committed assessment program on the part of
PBGC. Our assessments were designed to address authorization, authentication of users,
access controls, along with auditability and accountability over financial and privacy
information. The results of these reviews have led to the development of specific
corrective actions and improvements in the overall security program in place at PBGC
today. Current reviews conducted by the OIG reflect progress being made related to
security while at the same time highlight the fact that security is not a one time fix,
specifically in areas such as the monitoring and enforcement of established security
policies and procedures.

       The following items are examples of the progress made at PBGC and highlight
the continued need for improvement:
       All major business and general support systems either have or are in the process
       of having documented security plans that generally adhere to the guidance
       provided in NIST 800- 18.

       The OIG has performed reviews of the policies and procedures PBGC has
       developed and implemented to promote security. Work continues on the
       enhancement of the Enterprise Information Systems Security Program
       implemented in FY 2003.

      With respect to Continuity of Operations (COOP), PBGC continues to make a
      concerted effort to resolve the outstanding issues related to a contingency1
      business continuity plan that ensures recovery of its operations and is tested at
      least annually. To date, PBGC has not tested the recovery of its entire operations.
      However, during FY 2004, PBGC did conduct testing that included a shelter-in-
      place exercise, a walk-through of system use at an alternate site, and the systems
      recovery of two significant business processes (one of which involved its major
      program responsibility - the payment of participant benefits). Although all results
      could not be considered successful, all tests were positive steps in resolving
      PBGC's COOP issues and all produced encouraging results.

      A major area of concern to the OIG has been the progress on the certification and
      accreditation of PBGC7smajor business and general support systems, an issue
      that has been noted in every report to OMB since the requirement was first
      established. PBGC has developed and implemented a plan to evaluate its major
      business and general support systems over a three-year period. This generally
      complies with OMB A- 130 guidance. However, discussions have taken place and
 Letter to Joshua Bolton
 FY 2004 FISMA Report
 P a ~ 3e of 3

         management has agreed that the process in place requires si-gnificant improvement
         to hlly comply with existing and future requirements such as NIST 800-37.

         In past audits, the OIG has reported to PBGC internal control and operational
 conditions regarding information security to the extent that it has been considered a
 reportable condition. It is encouraging to see the progess being made in areas such as
 organizational responsibility and system monitoring, and we look forward to continued
 improvements. To aid PBGC in their efforts, the OIG tracks outstanding issues and
 recommendations as part of its compliance with OMB A-50, in addition to the POA&M
 submitted to OMB as part of this report and the required quarterly updates. This will
 provide PBGC with another mechanism to monitor progress on and final disposition of
 corrective actions for these issues.

        We are also encouraged that management continues its work on a major effort to
integrate financial systems that will provide the potential to improve operational
efficiency and effectiveness as well as data security. Significant progress was made in
developing a plan for addressing this issue during FY 2004, and we anticipate further
progress in FY 2005.

        To further assist PBGC with its security development program, the OIG will
continue to perform independent evaluations on an annual basis in addition to scheduled
audit projects. These evaluations and audit projects will include, but not be limited to,
the following:
             the annual financial statement audit that includes evaluating the general
             controls of PBGC including security for its financial systems,

        a    targeted application reviews other than those included in the annual financial
             statc:m.entarclit,

             targeted independent audits and evaluations of PBGC's compliance with
             applicable guidance, and

             reviews of contractor-provided services, as well as services from other
             agencies.

Sincerely,



Roben L. Emmons
Inspector General
